0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 unbound copy
and 40 bound copies of the foregoing Reply Brief of
Petitioners in 20-1755, Dean Hotop, Ken Schneebeli,
Jeff Zell, Sherman Zell, Lois Zell, Louise Peter, Seigi
Tadokoro, Pat Crema, Sean Rhinehart, Shuchun
Huang, James Campagna, Sal Ruiz, Isaac Agam, Steve
Mahl, Lloyd Kip, Roberta Moore, Deng Liu, Shasha
Chen, Xiaodong Li, Zhonghua Pei, Xiaocong Ye, Small
Property Owners Association - San Jose, in its
representative capacity on behalf of its association
members v. City of San Jose, a municipal corporation,
was sent via Next Day Service to the U.S. Supreme
Court, and 3 copies were sent via e-mail and Three Day
service to the following parties listed below, this 30th
day of September, 2021:
Malgorzata Laskowska
Office of City Attorney, City of San Jose
City of San Jose
200 East Santa Clara Street, 16th Floor
San Jose, CA 95113
(408) 535-1900

Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive

I Suite 102

Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Paul J. Beard II
FisherBroyles LLP
4470 W. Sunset Blvd.
Suite 93165
Los Angeles, CA 90027
(818) 216-3988
paul.beard@fisherbroyles.com

Counsel for California Rental Housing Association,
Apartment Owners Association of California, Inc.
Richard Montevideo
Rutan & Tucker LLP
18575 Jamboree Road
9th Floor
Irvine, CA 92660
(714) 641-5100
rmontevideo@rutan.com

Counsel for Apartment Association of Los Angeles
Count, Inc., DBA Apartment Association of Greater Los
Angeles
Frank A. Weiser
Counsel of Record
Attorney at Law
3460 Wilshire Blvd., Suite 1212
Los Angeles, CA 90010
(213) 384-6964
maimons@aol.com

Counsel for Petitioners

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 30, 2021.

=

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

.

